audit report



Return to the USDOJ/OIG Home Page



Bureau of Justice Assistance
Police Hiring Supplement Grant Awarded to the City of Fitchburg, Massachusetts 
Police Department
GR-70-99-006
July 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Police Hiring Supplement (PHS) grant awarded by the U.S. Department of Justice, Office of Justice Programs, Bureau of Justice Assistance, to the City of Fitchburg, Massachusetts Police Department (Fitchburg).  Fitchburg received a total of $525,000 to hire seven additional sworn police officers.

	We found that Fitchburg properly managed the PHS grant.  

Costs charged to the grant were allowable and in accordance with grant requirements. 

	Fitchburg appeared to be making a good-faith effort to fill officer vacancies.

	Local matching funds were appropriately provided from funds not already budgeted for law enforcement purposes.

However, we did identify deficiencies that are described in the Findings and Recommendations section of this report.  Our Scope and Methodology section appears in the Appendix.